    1:'\SPECTOR GE:'\ER.\L




     UNITED STATES INTERNATIONAL TRADE COiv1MISSION

                             WASHINGTON. D.C. 20436


September 12, 1991




The Office of Inspector General has completed a review of the USITC
Equal Employment Opportunity (EEO) program.     The purpose of the
review was to evaluate the Commission's compliance with applicable
laws and regulations and the effectiveness of the EEO program.

The two basic components of EEO are the creation and implementation
of affirmative programs designed to correct deficiencies in the
representation of minorities and women in the workforce, and the
establishment of a system to review and decide upon complaints of
discriminatory actions.    The EEO program has had some notable
accomplishments including the operation of the Federal Womens'
Program and implementation of the Upward Mobility Program.
However, on the whole, we found that the EEO program usually meets
the minimum requirements for an affirmative action program and
complaint processing, but does not actively pursue affirmative
action.

We found that the EEO staff are all assigned on a collateral duty
basis, which presents problems \"lith continuity and effective
accomplishment of the EEO program.      EEO staff and Commission
managers and supervisors are not all evaluated on their support of
EEO objectives. The Commission has provided adequate resources for
the EEO program, although better planning is needed. Required EEO
reports are submitted, although not always on a timely basis.

We found that the Commission has implemented career enhancement
programs but has made limited recruiting efforts.     Except for an
extensive Federal Women's Program, minority programs have had
minimal activity; a program coordinator has not been designated
for Blacks.   The Commission has not developed a training program
for EEO staff or Commission employees and has presented minimal EEO
training. The Commission has implemented a complaint process, and
has been timely in all but one case in responding to complaints.
The Commission has not complied with two regulatory requirements:
1) to publish agency regulations for the acceptance of complaints
and 2) to post certain information permanently on official bulletin
boards. The Commission has a system (the annual review of internal
controls in which EEO is an assessable unit) to periodically
evaluate the effectiveness of the EEO program. However, corrective
actions have not been taken in a timely manner to correct the
deficiencies identified.·
A synopsis of our recommendations based on the above findings are
that the EEO Director:
          Work with the Chairman's office in establishing an EEO
          office with permanent staff resources; have performance
          plans or agreements prepared for EEO staff and all
          managers and supervisors, and include all aspects of the
          EEO program in funding requests (pages 8 and 9);
          Establish a schedule of required reports and due dates
          to ensure reports are submitted on time; and clarify the
          role of the Office of Personnel in report preparat~on and
          approval (page 11);
          Coordinate with the Director of Personnel to develop an
          active recruiting program; and request that the Acting
          Chairman designate a program coordinator to represent
          Blacks (page 14) ;
          Develop a system to review annually the needs of the EEO
          staff for training and include this in the performance
          plans; and develop a comprehensive training agenda for
          the Commission (page 15); and
          Update the agency directive on the EEO program; and
          design posters that comply with the Federal regulations
          and post one on each floor of the Commission (page 18).
The EEO Director fully concurred with most of the findings and
recommendations. He partially agreed with recommendations on EEO
training for Commission employees and updating the agency directive
on the EEO program.   The Acting Chairman concurred with the EEO
Director's response except with respect to establishing a full-
time position for an EEO Director and the need to define the role
of the Office of General Counsel in the complaint process. We have
addressed these comments on pages 9 and 18 of the report. Other
comments have been incorporated as appropriate. The EEO Director's
and Acting Chairman's comments are presented in entirety as
appendices to the report.



                             1
                                 1!/n£;zaJ+
                                 Jane E. Al.tenhof:/r
                                 Inspector General
                                            TABLE OF CONTENTS


INTRODUCTION AND SCOPE. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                1

BACKGROUND . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .   2

FINDINGS AND RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                     3

OFFICE STRUCTURE AND RESOURCES . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                       3

         Part Time/Collateral Duty Staff . . . . . . . . . . . . . . . . . . . . . . . . . .                         4

         Performance Plans. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .            6

         Resources. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .    8

         Recommendations. . . . . . . . . . • . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .          8

         Commis sian Comments . . . . . . . . . . . . . • . . . . . . . . . . . . . . . . . . . . . . .              9

REPORTING..................................................... 10

         Recommendations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11

AFFIRMATIVE PROGRAM. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11

         Repre sen ta tion. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11

         Career Enhancement Programs . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12

         Recruiting Efforts . . . . . . . . . . . . . . • . . . . . . . . . . . . . . . . . . . . . . . . 12

         Minority Programs. . . . . . . . . . . . . . . . . • . . . . . • . . . . . . . . . . . . . . . . 13

         Recommendations . . . . . . . . • . . . . . . . . . . . . . . . . • . . . . . . . . . . . . . . . . 14

TRAINING . . . . . . • . • . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14

         EEO Staff. . • . . • . . . • . . • . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14

         Coltllll.ission Employees. . . . . • . . • • . . . . . . • . . • • . . . . . . . . . . . . . . . . 15

         Recommendations • . . . . . . . . . • • • . . . . . • . . . . . . . . . . . . . . . . . . . . . . . 15

         Coltllll.ission Comments. . . . . . . • • . . . • . . . . . . . . . . . . . . . . . . . • • . . .           16

COMPLAINT PROCESS . • . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16

         Complaints Filed. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16

         Guidelines . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . • . . . . . . . . . . . . . . . . 17

         Posters. . . . . . . • . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 17
        Recommendations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 18
        Commission CoitUnents. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .          18
EVALUATION. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 18

Attachments
        1.       Synopsis of Significant EEO Legislation

         2.      Comparison of Other EEO Offices
         3.      Combined Representation by Grade Levels
        4.       Workforce Profile for Economists
        5.       Workforce Profile for Attorneys
         6.      Workforce Profile for International Trade Analysts

        7.       Poster: USITC EEO Program Representatives

Appendices
        A.       Memorandum from the EEO Director,                                dated September 9,
                 1991, on Draft Report
        B.       Memorandum from the Acting Chairman, dated September 6,
                 1991, on EEO Director's Comments on the Draft Audit
                 Report
The Office of Inspector .General has completed a review of the USITC
Equal Employment Opportunity {EEO) program.     The purpose of this
review was to evaluate the Commission's compliance with applicable
laws and regulations and the effectiveness of the EEO program.

our review was conducted in March through June 1991. The fieldwork
was performed at the Commission Headquarters in Washington, D.C.
primarily by interviewing current and past EEO Directors, current
EEO counselors, program coordinators for the minority programs,
personnel in the Offices of Personnel, ·Management Services, Finance
and Budget, and individuals that contributed to the EEO program.

We evaluated compliance with applicable regulations published· by
the Equal Employment Opportunity Commission (EEOC) (29 C.P.R. §
1613 et seq) and the Office of Personnel Management (OPM) (~ C.F.R
§  720 et seq).     We also reviewed. compliance with two EEOC
management directives: EEO-MD-713 "Affirmative Action for Hiring,
Placement, and Advancement of Individuals with Handicaps and EEO-
MD-714 "Instructions for the Development and Submission of Federal
Affirmative Employment Multi-Year Program Plans, Annual Accomp-
lishment Reports, and Annual Plan Updates for Fiscal Years (FYs)
1988 to 1992.

We evaluated the process of how counseling is obtained by
employees; the complaint process; the use of career enhancement
programs; adequacy of report preparation; and EEO awareness
throughout the agency.    In our   evaluation of the complaint
process, we reviewed six formal complaint files.    We observed
physical safeguards over EEO complaint files and records.    We
identified and evaluated the recruiting efforts made by the
Commission.
Additionally, we contacted other Federal agencies of comparable
size ·to compare policies and procedures. We also"spoke with EEOC
representatives for clarification of guidance.

As part of the review, we determined whether appropriate action had
been taken in response to prior reports. An assessment of the EEO
program was performed by the Office of Personnel in May 1984. EEO
is an assessable unit in the Federal Manager's Financial Integrity
Act (FMFIA) process. An Internal Control Review was conducted by
the EEO Director in FY 1989 and a compliance statement was
submitted in FY 1990.
This review was performed in accordance with applicable generally
accepted government auditing standards.   Accordingly, the review
included an examination of internal controls and other auditing
procedures that were considered necessary under the circumstances.
                                 1
The evolution of civil rights legislation has placed dynamic
obligations on Federal agencies to exert an active force to assure
the fullest measure of equality of employment opportunity in their
employment practices. It is the policy of the Federal government
to provide equal employment opportunity for Federal employees, to
prohibit discrimination in employment because of race, color,
religion, sex, national origin, handicap, and/or age, to promote
the full realization of EEO through a continuing affirmative
program, and to resolve complaints at the earliest possible stage.
This policy applies to Federal agencies pursuant to Executive Order
Number 11478, Sec. 1 as amended.    A synopsis of significant EEO
legislation is presented in Attachment 1.
The requirements of EEO, as they apply to Federal agencies, has
been implemented in regulations promulgated by the EEOC a~d OPM.
The EEOC regulations (29 C.F.R. § 1613 et seq) provide some general
guidance on establishing a continuing affirmative program for equal
opportunity and detailed guidance on processing discrimination
complaints. The OPM regulations (5 C.F.R § 720 et seq) primarily
provide guidance on recruitment and disabled veterans affirmative
action programs.
The Commission • s EEO policies and procedures are set forth in
Directive 4502, dated October 20, 1977.        As stated in the
Directive, the Commission's policy is to strive for an integrated,
diversified work force.     Every employee of the Commission is
responsible for observing the spirit and intent of EEO principles
in carrying out the daily affairs of the agency.
                                      I

As defined in the FMFIA process, the Commission • s EEO program
consists of six cycles: Counseling - counselors are available to-
assist employees'with job related problems; Complaint process-
process designed to el~inate discrimination of race, color, sex,
religion, disparity,    reprisal, handicap and mistreatment of
employees by supervisors and managers; Upward Mobility Program -
program designed to provide advancement opportunities to lower
graded employees in positions with limited promotion potential;
Career Education Fellowship Program- program open to all permanent
employees in positions with promotion potential to the GS-8 grade
level and below.   Fellowships are awarded to employees pursuing
off-duty education in the International Trade Analyst and Economist
career fields;    Report Preparation - each Federal agency must
report certain EEO related information to EEOC and OPM on
established due dates; and EEO Awareness - ensuring that managers,
supervisors and employees are cognizant of EEO regulations.




                                 2
The two basic components of EEO are the creation and implementation
of affirmative programs designed to correct deficiencies in the
representation of minorities and women in the workforce, and the
establishment of a system to review and decide upon complaints of
discriminatory actions.    The EEO program has had some notable
accomplishments including the operation of the Federal Womens'
Program and implementation of the Upward Mobility Program.
However, on the whole, we found that the EEO program usually meets
the minimum requirements for an affirmative action program and
complaint processing, but does not actively pursue affirmative
action.
We found that the EEO staff are all assigned on a collateral duty
basis, which presents problems with continuity and effective
accomplishment of the EEO program.      EEO staff and Commission
managers and supervisors are not all evaluated on their support of
EEO objectives. The Commission has provided adequate resources for
the EEO program, although better planning is needed. Required EEO
reports are submitted, although not always on a timely basis.
We found that the Commission has implemented career enhancement
programs but has made limited recruiting efforts. Except for an
extensive Federal Women's Program, minority programs have had
minimal activity; a program coordinator has not been designated
for Blacks even though this is a targeted group in the Commission's
Federal Employees Opportunity Recruitment Program (FEORP).      The
Commission has not developed a training program for EEO staff or
Commission employees and has presented minimal EEO training. The
Commission has implemented a complaint process, and has been timely
in all but one case in responding to complaints. The Commission
has not complied with two regulatory requirements for published
agency regulations and posted notices. The Commission periodically
evaluates the effectiveness of the EEO program in the FMFIA process
but has not taken corrective actions in a timely manner to correct
the deficiencies identified.




We found that the EEO staff are all assigned on a collateral duty
basis.    This presents problems with continuity and effective
accomplishment of the EEO program. The EEO Director, counselors,
and program coordinators do not have performance plans for the EEO
program and are not evaluated on their performance.     A general
statement on EEO is included in the performance plans for at least
some Commission managers and supervisors. The Commission has

                                 3
provided adequate resources for the EEO program in terms of funding
and support services. However, all of the EEO program needs are
not being considered in the budget process.

Part Time/Collateral Duty Staff
Federal regulations (29 CFR 1613.204) require each agency to
designate an EEO Director and as many EEO officers, counselors and
program coordinators as necessary. The Commission has designated
a Director, four counselors and five program coordinators. The EEO
staff serve on a collateral duty basis and must accomplish the EEO
program responsibilities in addition to all of their regular job
requirements.
The EEO Director has usually been recruited by the Chairman' s
office and is appointed in an Administrative Order. There is not
a written policy on who should be selected or the length of the
assignment. In practice, the position has been rotated ev~ry one
or two years to employees in various offices and at various levels.
Over the past. five years, the EEO Directors have been:
     International Trade Analyst, ID     10/01/90   -   09/30/91
     Branch Chief, ID                    10/01/89   -   09/30/90
     Director, OUII                      10/01/88   -   09/30/89
     Director, TATA                      11/11/86   -   09/30/88
     Attorney, OGC                       10/01/86   -   11/10/86
The counselors and program coordinators have primarily been
recruited by the EEO Director and are appointed by the Chairman in
an Administrative Order for an indefinite period. They currently
represent seven different offices with staff positions up to the
branch chief level.     These individuals have ·held their EEO
positions from 2 to 13 years, with an average term of 8 years.
According to the Activity Reporting System, only 72 days were spent
on ·the EEO program in FY 1990. Over half of this time (48 days)
was spent on the Federal Women's Program. The EEO Director only
reported 11 days.    As of May 5, 1991, nearly 55 days had been
charged to the EEO program, most of that equally divided between
the EEO Director and the Federal Women's Program.
The question of whether sufficient personnel and other resources
were allocated to implement the EEO program was addressed as early
as 1984. The Office of Personnel conducted a review and observed
that some of the EEO programs were relatively inactive, and that
there was a significant learning curve for new directors.      The
then-designated EEO Director said there was insufficient time to
perform program analysis and advisory services to managers.     He
suggested that a staff person on a full or part-time basis was
required to support a collateral duty director and to provide
continuity and expertise in EEO matters.
                                  4
The Director, OUII who was EEO Director in FY 1989 said she also
thought there was a problem with a lengthy learning curve and
continuity. In the FY 1989 internal control review, she identified
the need for revision of the EEO directive and policy manual and
preparation of a handbook for EEO staff outlining the complaint
processing time limits and procedures as a weakness and budgeted
funds for a contractor to do this work. The Director, OUII recalls
advising the next EEO Director of this recommendation, although he
did not remember being aware of the recommendation until he was
conducting the internal control review the following year.     The
current EEO Director did not think the current EEO budget had
sufficient funds for this project.
The current and prior EEO Directors, the counselors and the program
coordinators commented that they sometimes have difficulty in
performing their EEO duties if their job duties are pressi·ng.
Several EEO Directors commented on the difficulty and time
necessary to respond to a complaint, and the difficulty in
accomplishing this while performing other job responsibilities.
We contacted other Federal agencies of comparable size to the
Commission to determine how their EEO offices were staffed (see
Attachment 2).   All but one of the six agencies with over 300
employees had a full-time EEO Director, and the agency with a part-
time director had a full-time staff person.

We discuss various problems with the EEO program in the following
sections of this report.   We believe these weaknesses are caused
at least in part by the lack of continuity in resources devoted to
the EEO program.
We believe permanent resources need, to be assigned to the EEO
program, and that having a permanent director is preferable to
having permanentr staff for ensuring that the EEO program is-
properly implemented.    There are many options for providing
permanent resources which include the following:

     1.   Establish a permanent position    for   an EEO   Director,
          possibly on a part-time basis.

     2.   Assign the EEO Director responsibilities to a current
          Commission employee, preferably an office director.
          Support staff on either a full or part time basis would
          probably be needed.
     3.   Continue to designate the EEO Director on a collateral
          duty, rotating basis and assign a permanent, possibly
          part-time, staff position.   The director designation
          should be limited to senior staff who have greater
          flexibility in managing their own time, ability to

                                 5
          delegate tasks and access to the Commission and other
          senior staff.  Certain office directors such as myself
          and the General Counsel would have to be excluded from
          the rotation.
We do not believe the last option is as effective as the first two
although it has some advantage of increasing knowledge about the
EEO program throughout the Commission.        The permanent staff
position would provide continuity in the program for record
maintenance and procedures, although not for the expertise expected
of a director. A major disadvantage in this approach is that with
the learning curve, regular job demands , and the short time
assigned, the EEO program would continue to operate at a minimal
level.
The current EEO Director reports to the Acting Chairman, but this
relationship could be reconsidered. The regulations require that
the head of the agency appoint the EEO Director but do not require
that the EEO Director report to the head of the agency. .Of the
eleven comparably sized agencies, seven reported to the head of the
agency. Others reported to the Deputy, Staff Director, or Director
of Administration (see Attachment 2).    We believe the reporting
relationship is an indication of the agency's regard for a program,
and should remain at a high level within the Commission if not
directly to the Chairman.
During our review, we examined the relationship between the Office
of Personnel and the EEO Office.      These offices have related
functions and must coordinate closely. The Director of Personnel
said that the EEO responsibilities are seldom assigned to the
Office of Personnel as a check and balance since the goals of the
two offices are not always the same. The EEO offices with full-
time directors used in our comparison were all separate from their
agency personnel offices. The full-time EEO staff person at the
Commodity Futures Trading Corporation was located in the Office of
Personnel, although the part-time Director was not. We noted that
the Department of Commerce has a Director for Personnel and Civil
Rights with separate offices for these two functions reporting to
him.

Performance Plans
Federal regulations (5 CFR § 720.204) state that all officials who
have responsibility for the EEO program will be evaluated on their
effectiveness in carrying it out as part of their periodic
performance appraisals. The EEOC guidelines state that managers,
supervisors, EEO Officers, and personnelists share responsibility
for successful implementation of the affirmative employment program
and their performance appraisals should include an element based
on meeting equal employment opportunity objectives.

                                 6
Directive 4502 states that Commission supervisors and managers bear
major and ultimate accountability for the realization of EEO in
their respective organizations. The directive does not include a
requirement for the EEO responsibilities to be identified in the
performance plans.
The current EEO Director does not and the prior EEO Director did
not have a performance plan with the Chairman covering EEO
activities.   These individuals did not report to the Chairman as
part of their regular job responsibilities and would therefore have
had to develop a separate performance plan (this was done for a
Division Chief who was EEO Director in 1982). The Director of OUII
had an item on being EEO Director in her workplan for the period
January through September 1989.

None of the current counselors or program coordinators had a
performance plan with the EEO Director or an element on their EEO
responsibilities in their performance plans with their immediate
supervisors.   Performance plans are important for counselors and
coordinators because of the collateral duty aspect.     Without a
plan, there is no understanding of how much time the EEO staff are
expected to devote to these duties.         There is actually a
disincentive to performing EEO duties as there is no recognition
involved. Several of the Commission's EEO staff expressed a desire
for their EEO responsibilities to be in their performance plans.

Some concern was expressed about counselors and program managers
reporting to two people - the immediate supervisor and the EEO
Director. We contacted other agencies and found performance plans
and appraisals for collateral duty EEO staff were handled in a
yariety of ways. For example, EEO responsibilities were included
in their performance plans with the EEO Director: in performance
plans with the immediate supervisor and the EEO Director conducted
the performance evaluation either solely or with the supervisor;
and one agency was developing memoranda of understanding.
It ·is unclear how many managers and supervisors have an EEO element
in their performance plans.      The 19 84 report by the Office of
Personnel stated that SES performance appraisal plans incorporated
support of the EEO program as a critical element.     our review of
the SES performance plans for the year ending September 30, 1989,
found that the plans had a critical element on Human Resources
Management with a corresponding fully successful standard that
includes a     statement   "Applies EEO and affirmative action
principles".     The Deputy Director of Personnel conducted an
informal survey of the Office of Industries ·and found that most
Division and Branch Chiefs had a similar element and standard.




                                 7"
Resources
In FYs 1990 and 19911 the EEO program was allocated $13~000. In
FY 1990   $7 893 was expended on training and training related
          I       I

travel. In FY 19911 only $640 had been expended as of February 281
1991. The allocations were only for training and training related
travel.
In general the EEO Directors described the budget process as
              I

determining what the training needs were for the EEO staff and any
extraordinary items    such as the training class and proposed
                        I

contract project. No funds were requested for recruitment travel
or to sponsor the minority programs.
We identified only two instances, neither of them recent, in which
requests for funds were denied. Two program coordinators requested
relatively minor amounts for items to be used in presenting a
program and were told funds were not available.      Both program
coordinators said that since then they have not repeated their
requests. Two coordinators said they paid for items themselves.
We do not think there is any intention to limit the EEO activities
through fund control. We believe there is a lack of coordination
during the budget process in requesting funds and informing the
program coordinators that funds are available.
In addition to budgeting funds, various Commission offices provided
support services to the EEO program.     Rooms were made available
upon request for meetings, seminars and programs. The Publishing
Division assisted with designing and printing flyers and posters.
The Office of Personnel has maintained a system (automated in late
1989) to provide personnel statistics for the EEO program.

Recommendations
we·recommend that the EEO Director:
     1.       Work with the Chairman's office in establishing an EEO
              office with permanent staff resources;
     2.       Prepare a performance plan for the EEO Director duties
              to be signed by the Chairman, and agreements (performance
              plans or memoranda of understanding) for the counselors
              and program coordinators to be signed by their Lmmediate
              supervisors and the EEO Director;
     3.       Request all Office Directors to certify that their branch
              and division chiefs have EEO requirements incorporated
              in their performance plans and revise the EEO directive
              to require that all supervisors and managers have an EEO
              performance element in their performance plans; and
                                     8
     4.   Include all aspects of the EEO program, e.g. training,
          recruiting and minority programs, in funding requests.


Commission Comments
Many of the comments submitted related to our recommendation that
the EEO office have permanent resources. A major issue is whether
permanent resources should include a full-time EEO Director, which
would be a significant increase in resources from those currently
spent on this program.
There is no criteria on the minimum amount of time that should be
devoted to EEO. A prior EEO Director said that given the level of
complaints, the amount of reporting, the presence of various EEO
program managers, and the size of the Commission, neither the ·EEO
Director or a staff person was needed on a full-time basis.    The
current EEO Director believes, and recommended to the . Acting
Chairman, that a full-time Director- be appointed.     The Acting
Chairman concurs that permanent resources are needed, but does not
support a full-time position.   Since the EEO Director and Acting
Chairman concur that permanent resources are needed, we consider
this recommendation to be resolved, with the specific corrective
action to be determined in the future.

If the EEO Director is to be a part-time assignment to an existing
office director,    the issue becomes which ·office is most
appropriate, and specifically whether this function could be given
to the Director of Personnel. Both the Director of Administration
and Director of Personnel feel that the Director of Personnel
should not be designated as the EEO Director to avoid the
appearance of a conflict of interest.
The EEOC Representative said EEOC    prefers that EEO and personnel
not be commingled because there is   a conflict in the goals of the
two programs. However, Federal law   and regulations do not prohibit
collocating the EEO and personnel     responsibilities, and various
agencies have done so.

The EEO Director also objected to our observation that the
Department of Commerce has a Director for Personnel and Civil
Rights because the Department is so much larger than the
Commission.   We believe our observation is consistent with our
position that the Commission has numerous options in how to assign
permanent resources to the EEO program.   For further comparison,
we have footnoted Attachment 2 to show that the part-time EEO
Directors in comparably sized agencies have concurrent duties as
the Assistant Chairman of Operations, Public Affairs Specialist,
Director of Personnel, and Deputy Executive Director.



                                9
We found that the Commission had submitted EEO reports as required,
although not always on a timely basis. The EEO Director said EEOC
and OPM send notices to the agencies to submit these reports, but
the requests sometimes go to the past EEO Directors or the Office
of Personnel and are not received by the current EEO Director in
time to respond.
Two reports must be submitted to OPM annually.   On November 27,
1990, OPM notified agencies that the deadlines for these reports
were extended until December 31, 1990. Even with this extension,
both reports were submitted late.

     A report on the prior FY FEORP plan, normally to be submitted
     no later than November 1, was submitted by the Director of
     Personnel on January 18, 1991.       The Deputy Director ·of
     Personnel is identified as the FEORP representative and the
     transmittal letter was signed by the Director of Personnel.
     The EEO Director did not even have a copy of the report. The
     Deputy Director said that the Office of Personnel prepared
     this report because a previous EEO Director had requested
     assistance and the practice has continued. He commented that
     the EEO Director should have responsibility for this report.
     A report on disabled veterans, normally due to be submitted
     no later than December 1, was submitted by the EEO Director
     on January 31, 1991.    The EEO Director said this was an
     oversight.
Three reports must be    submitted to   EEOC.   Two of   these were
submitted late.
     Agencies with fewer than 500 employees are no longer required
     to submit affirmative action plans but must submit a
     statement, signed by the agency head, affirming the agency's
     commitment to equal employment opportunity.    This statement
     is due once at the beginning of a five-year reporting period,
     which are on a staggered schedule established by the EEOC.
     The Commission's certification, due February 15, 1988, was
     submitted by the Chairman on April 10, 1989.
     An annual workforce profile report for disabled employees to
     be submitted by December 31 was submitted by the EEO Director
     to the Chairman on February 1, 1991, and signed by the
     Chairman on February 4, 1991.
     An annual statistical report of discrimination complaints for
     the FY must be submitted by October 31.     The EEO Director
     submitted this report on October 22, 1990, for FY 1990.



                                10
We believe that permanent staff whose responsibilities would
include the preparation of reports would alleviate this problem of
missing deadlines and would also improve the maintenance of file
records.  Until a permanent position can be established, the EEO
Director needs to be more aware of the reporting deadlines.

Recommendations
We recommend that the EEO Director:

     1.   Establish a schedule of required reports and due dates
          and ensure EEO reports are submitted on time; and
     2.   Coordinate with the Director of Personnel to clarify the
          role of the Office of Personnel in report preparation and
          approval.




The head of the agency is responsible for ensuring that there is
an effective affirmative program. Affirmative action is needed to
improve areas with a noticeable lack of minorities. We found that
the Commission has implemented career enhancement programs but the
recruiting efforts have been limited.     Except for an extensive
Federal Womens' Program, the minority programs have had minimal
activity; and a program coordinator has not been designated for
Blacks which is a target FEORP group.      The Commission has not
developed a training program for EEO staff or Commission employees
and has presented minimal EEO training.


Representation

There is a conspicuous absence of minorities in the Commission's
three   mainstream  occupations      Economists,  Attorneys   and
International Trade Analysts.     Conspicuous absence refers to
situations in which an EEO group is nearly or totally nonexistent
in an agency's work force.    The senior level (GS 14+) of these
occupations has virtually no minorities except white female
attorneys.   Even with all grades combined, there are nearly no
Blacks or other minorities (Asian, American Indian, Pacific
Islanders and Hispanic) in these categories. Statistical details
on representation are presented in Attachment 3.
The three mainstream occupations also have a manifest imbalance at
some grade levels and for some minorities.     Manifest imbalance
refers to situations in which an EEO group's representation is
substantially below its representation in the appropriate civilian
                                11
    labor force.   Statistical details are presented in Attachments
    4-6.  We recognize that a change in one individual can cause the
    statistics indicating manifest imbalance to fluctuate significantly
    due to the small size of the populations, but think they should
    still be considered in .evaluating the Commission's EEO profile.


•   Career Enhancement Programs
    The Commission has implemented several career enhancement programs
    over the years.    An Upward Mobility Program was established in
    1978.   Since 1982, 12 Commission employees have enrolled and
    completed the program which generally lasts two years.      Six of
    these have been paralegal specialists, three international trade
    analysts, one economist assistant, one a nomenclature analyst, and
    one a contract specialist.

    The Upward Mobility Program has been relatively inactive in recent
    years, with no new enrollees since 1988 and no one currently in the
    program.   Two factors have contributed to the decline.      First,
    offices had to reserve a position for the participant which was not
    plausible in small offices or when turnover was low, although this
    requirement has been modified. For instance, the General Counsel,
    who was the most frequent user of the Program, said use had been
    limited in recent years due to the reserved position requirement
    and she was not aware that the requirement had been changed.
    Second, participants did not have a degree after completing the
    program which was viewed negatively by some managers.

    In an effort to address the concerns about the Upward Mobility
    Program, the Commission instituted a Career Education Fellowship
    Program in August 1990.   These individuals have a degree after
    finishing the program, which is targeted at economists and
    international trade analysts. Two individuals have been enrolled
    so far.

    The Federal Women's Program recently suggested to the Acting
    Chairman that a mentoring program be established and this is under
    consideration.   Another possibility raised by the Handicapped
    Program Coordinator is to participate in a program to employ
    handicapped persons free of charge for up to 700 work hours and a
    position does not have to be guaranteed.


    Recruiting Efforts
    We found that the Commission recruiting efforts have consisted
    almost exclusively of sending vacancy announcements to minority
    institutions (e.g., schools and employment offices).   This is
    sufficient in terms of the Commission's FEORP plan, but not in
    terms of the union agreement or EEOC guidelines.


                                    12
The current union agreement states that recruitment activities will
include, but not be limited to, the following, as appropriate:
targeted vacancy publicity to predominantly minority institutions;
designated on-site recruitment; contact with veterans groups and
state/local employment offices; and networking by EEO special
program managers. The current and past two EEO Directors have done
no recruiting to attract minorities to the Conunission.        Some
program coordinators, not including the veterans, said they would
pass on job announcements or job applications that they received
but did no active recruiting.

The EEOC informed the Acting Chairman in December 1990 that the
workforce statistics on the handicapped indicated that additional
recruitment sources needed to be considered. Several options were
given such as recruiting at an annual job fair held for persons
with disabilities, contacting college and university coordinators
for services to students with disabilities, and maintaining contact
with organizations and associations for persons with disabilities.
None of these suggestions have been acted upon.

Minority Programs
The Commission has appointed coordinators for five minority
programs.    With the notable exception of the Federal Woman • s
Program, the minority programs had minimal activity. A coordinator
has not been appointed for Blacks.
Federal regulations ( 29 CFR 1613.204) require each agency to
designate as many EEO Program Coordinators as necessary.        The
Conunission's EEO Directive provides for a Federal Women's, Spanish
Speaking, Veteran, and Handicapped Program Coordinator.       These
coordinators have been designated and a coordinator for the Asian
American-Pacific Islander-American Indian-Alaskan program.

As stated in directive· 4502, duties delegated to the program
coordinators   are:     cognizance   of   factors  affecting   the
employability and advancement, identification and means to enhance
opportunities for employment and career development, and education
of managers and staff concerning employment needs and constraints.
The program coordinators appeared knowledgeable about their
programs,  occasionally attended national meetings and were
available to employees with questions, but did not have time for
more proactive efforts.

On the other hand, the Federal Women's Program was very active.
The Program accomplishments were published in an annual report
dated March 14, 1991. A sampling of their efforts included:
          promoting the mentoring program;
          presenting seminars, workshops and skits;
          publishing a newsletter; and

                                13
              sponsoring a health and insurance fair and Christmas Toy
              Drive.
We believe there are several factors causing the lack of activity
in the minority programs.     Primarily, coordinators said it is
difficult to find time and volunteers to help. If the coordinators
knew that they were expected to spend a certain percentage of their
time on the EEO program and that they would be evaluated on their
efforts, we believe a greater effort would be made. An additional
factor is the lack of knowledge about resources, the budget funds
as previously discussed, and support services.     We also believe
more guidance from the EEO Director on how a reasonably active
program commensurate with the Commission's size could be organized
would be useful.
A noticeable omission in the Commission's EEO program was a Black
Program Coordinator.    EEOC has not designated which minorities
should have program coordinators, leaving this to the agency's
discretion. We believe the Commission's profile and identification
of blacks as a targeted group in the FEORP plan supports the need
for a Black Program Coordinator. In the absence of a Coordinator,
an ad hoc committee organized a program in support of Black History
Month.   The EEO Director is supportive of designating a Black
Program Coordinator.

Recommendations
We recommend that the EEO Director:
       1.     Coordinate with the Director of Personnel to develop an
              active recruiting program to attract minorities; and
       2.     Identify an employee willing to be the Black Program
              Coordinator and request a designation from the Acting
              Chairman.




Minimal EEO training has been provided for Commission employees
other than the EEO staff, and some of them have not attended
training recently.

EEO   Staff
Traditionally, the EEO staff takes at least the Basic Training EEO
Course, sponsored by OPM and periodically they take courses to
update their knowledge. However, there are no procedures in place
to monitor the training needs of the EEO staff.
                                    14
All of the counselors have attended training since being designated
and had refresher courses in the last two years.       Most of the
coordinators attended the basic EEO training and refresher courses
in the last couple of years. One coordinator designated two years
ago has not yet attended training (a course scheduled for last year
was rescheduled for this year) and two program coordinators and a
counselor have not received training for several years.       It is
important for the EEO staff to have current training to keep
informed about changes concerning EEO.

Commission Employees
Limited EEO training has been given to· Commission employees and no
training courses are currently scheduled. A comprehensive training
agenda has not been established.
The 1984 report stated that almost no in-house training had been
offered for several years and without a blueprint for c;1ction,
training efforts would remain limited and unfocused. The report
identified a need for a comprehensive training agenda, particularly
for training of managers and supervisors.
The training recommended in 1984 for managers and supervisors was
not given until August 1989 - five years later. The only record
of EEO training being given for all Commission employees was a
sexual harassment course offered in 1984. Participants in the SES
candidate and Managerial Development Programs are scheduled to take
formal EEO training, but this affects very few of the Commission
employees (seven in FY 1991).
We realize that supervisors would consider any individual's request
to attend·an EEO training course, but we believe such courses are
seldom requested. Courses need to be offered in-house in order to
effectively reach all Commission employees. EEOC guidelines do not
have a specific requirement for employee training, but state that
the affirmative action plans should include formal training for
supervisory and management personnel on their EEO re"sponsibilities.
Training is also suggested as being part of the agency plan to
prevent sexual harassment.

Recommendations
We recommend that the EEO Director:
     1.   Develop a system to review annually the needs of the EEO
          staff for training and include this in the performance
          plans; and
     2.   Develop a      comprehensive   training   agenda   for   the
          Conunission.
                                 15
Commission Comments
The EEO Director partially agreed with the recommendation, which
as originally stated included a requirement for annual training.
The EEO Director stated the assessment of need in conjunction with
the budget formulation process was more appropriate than a
requirement for annual training.     We concur and modified the
recommendation accordingly.




We found that the Commission has had very few complaints, and has
been timely in all but one case in responding to complaints. We
also found that the Commission is not in compliance with
regulations requ~r~ng the agency to publish guidelines and
publicize the complaint process.

Complaints Filed

The head of the agency is responsible for providing counseling for
employees that believe they ·have been discriminated against,
providing for the prompt (emphasis added) , fair, and impartial
consideration    and   disposition    of   complaints    involving
discrimination issues, providing sufficient resources for the EEO
program. EEO counselors are to assist aggrieved employees or
applicants for employment who feel they have been discriminated
against. Employees and applicants are required to contact an EEO
counselor prior to making any formal complaint. The EEO Director
is responsible for processing discrimination complaints.
                                     I

The Commission has had very few complaints. The Annual Statistical
Report of Discrimination Complaints for FY 1990 reported that ten-
individuals had been counseled during the reporting period, and
none of these filed a formal complaint.
There are two complaints on hand. One complaint filed in 1988 is
currently on appeal to the District Court.    The other case filed
in 1989 is awaiting a decision from the agency head. No complaints
from prior periods were closed in FYs 1990 or 1991 to date.    The
Office of Finance and Budget was unaware of ever having to pay an
EEO settlement.
The EEO process has very specific timeframes within which the
individual must take action. The agencies are not similarly bound
by time limits on a step by step basis, but are supposed to give
prompt consideration to complaints.     If a complainant is not
satisfied with an agency's decision after 180 days, a case can be
filed in civil court.    We believe the Commission should try to
reach a decision within the 180 day period.
                                16
We found that an agency decision has not been made on one of the
current cases that far exceeds 180 days. The complaint was filed
on July 31, 1989. A proposed disposition was initially submitted
to the Acting Chairman in November 1990 - significantly past the
180 day time frame.  The Office of General Counsel disagreed with
the proposed disposition which was then rewritten by the current
EEO Director and submitted to the Acting Chairman on February 8,
1991.  The proposed disposition is currently being reviewed by a
staff member in the Acting Chairman's office who understood that
the document did not have a deadline.
The General Counsel's role in reviewing EEO complaints is not set
forth in the EEO Directive.    The General Counsel stated that her
office has no role other than to advise the Chairman on EEO matters
or defend the Chairman in court.    Consistent with this view, the
EEO Director did not routinely coordinate with the Office of
General Counsel, believing this was done by the Acting Chairman's
office.    We believe the role of the General Counsel in the
complaint process needs to be set forth in the Directive in order
to ensure the Chairman is advised on EEO matters in a timely
manner.

Guidelines
Federal regulations (29 CFR 1613.212) require that agencies shall
provide in their regulations for the acceptance of a complaint from
any aggrieved employee or applicant for employment who believes
that they have been discriminated against by that agency.       The
Commission does not have such regulations. An EEOC representative
advised the Commission's Assistant General Counsel that current
agency directives would be an acceptable alternative to guidance
published in the Federal Register.
The Commission does not meet this alternative either.     The 1984
report stated that Directive 4502, last revised in 1977, was out-
of~date.  The Directive did not comply with Federal regulations on
complaint processing, affirmative action and a number of other
important EEO programs and/or responsibilities.       A two page
appendix addressed how the complaint process specifically did not
comply with the regulations.


Posters

Federal regulations {29 CFR 1613.204) require that the agency shall
publicize to its employees and post permanently on official
bulletin boards certain information including the name and address
of the EEO Counselors, their availability to counsel an employee
or applicant, and the requirement that a Counselor must be
consulted before a complaint can be filed and the time limits for
filing a complaint.

                                17
The Commission had posters printed last year that identify the EEO
staff {see Attachment 7). The posters were located by the entrance
to the Office of Personnel, in the employee's lunchroom on the
fourth floor and in the EEO Director's office {the latter was
recently moved to the first floor) . The posters have the names of
the EEO staff but do not include the narrative required by the
regulations.    The EEO Director said a new poster with this
information would be made.

Recommendations
We recommend that the EEO Director:
     1.   Update the agency directive on the EEO program and
          include the role of the Office of the General Counsel in
          the complaint process: and
     2.   Design posters that comply with the Federal regulations
          and post one on each floor of the Commission.   ·


Commission Comments
The EEO Director only partially agreed with the recommendation to
update the EEO Directive and include the role of the OGC.        He
stated that the OGC has no role in the complaint process except to
advise the Chairman on EEO matters or defend the Chairman in court.
We   believe   these   "exceptions"   should   be  set   forth   as
responsibilities in the revised directive. Furthermore, the Acting
Chairman stated in her comments that the appropriate role of the
OGC should not be prejudged but developed as part of the
preparation of the directive.
The General Counsel stated that the EEO Director may need to have
a source of legal advice other than OGC.    We believe this issue
could also be addressed while developing the directive.




We found that the Commission is periodically evaluating the
effectiveness of the EEO program,      as required in Federal
regulations, but is not taking corrective actions in a timely
manner to correct the deficiencies identified.
The Office of Personnel prepared a quite thorough assessment of
the EEO program in May 1984, at the request of the EEO Director.
The report conclusions included that the EEO policy was outdated
and failed to meet regulatory guidelines: that management had
little   awareness  of   the  Commission • s EEO  program,  it • s
                                18
requirements, or the role they should play in it; and that the
assignment of the EEO Director on a rotational and collateral duty
basis, without support staff, does not appear to provide continuity
or expertise, and dilutes program effectiveness.       None of the
corresponding recommendations were implemented.

The EEO program is now periodically evaluated as part of the FMFIA
process.  An internal control review was conducted in 1989. The
outdated guidelines were identified as a weakness over four years
ago, as was the need for better guidance to enhance continuity.
The EEO Director needs to be provided adequate resources to perform
the duties of the office and then be held accountable for
correcting program deficiencies.




                                19
                                                  ATTACHMENT 1



             SYNOPSIS OF SIGNIFICANT EEO LEGISLATION

The following is not intended to be all inclusive of the required
EEO legislation, however, it is a synopsis of significant EEO
legislation from 1963 to 1978:
1963 Equal Pay Act. This Act essentially protects men and women
     who perform substantially equal work in the same
     establishment from sex-based wage discrimination.
1964 Civil Rights Act (PL 88-352). Defined discrimination and
     protected groups. This law focused on the issues and effects
     of discrimination in areas such as employment, loans,·
     education, and public facilities.
1967 Executive Order 11375. Added sex to other forms of
     prohibited discrimination in the Federal Government.
1967 Age Discrimination in Employment Act. Protects individuals
     40-70 years of age from employment discrimination.
1969 Executive Order 11478. Dealt exclusively with Federal
     Government employment. Applied the concept of EEO to the
     Federal Government, spelled out affirmative action, and
     emphasized upward mobility.
1972 Equal Employment Opportunity Act (PL 92-261). Amended the
     Civil Rights Act of 1964 to include the provision of
     Executive Order 11478.
1972 Vietnam Era Readjustment Assistance Act. Prohibits
     discrimination against disabled veterans of the Vietnam Era
     and requires affirmative action plans for this group.
1973 Section 501 of the Rehabilitation Act of 1973. This Act
     prohibited Federal sector handicap discrimination.
1978 Civil Service Reform Act. Establishes the Federal Equal
     Opportunity Recruitment Program which mandates Federal
     agencies to conduct targeted recruitment of minorities and
     women. It transferred from the Civil Service Commission to
     the EEOC responsibility for the administration of the
     Federal government's EEO Program.
                                                        ATTACHMENT 2

                      COMPARISON OF OTHER EEO OFFICES
            APPROXIMATE   1991 ESTIMATED                OFFICIAL TO
             NUMBER OF    AGENCY BUDGET                   WHOM EEO
             PERMANENT     IN THOUSANDS      STATUS OF    DIRECTOR
AGENCY       EMPLOYEES      OF DOLLARS     EEO DIRECTOR   REPORTS

NEA            228          $174,306        FULL TIME        Dep. Chmn.

FMC            230            15,894        FULL TIME        Chairman
NEH            233           170,129        PART TIME    a   Chairman

FEC            234            17,150        PART TIME    b   Staff Dir.
FLRA           240            18,718        PART TIME    c   Dir. of Admin.

MSPB           361            24,064        FULL TIME        Chairman

ACTION         416           192,645        FULL TIME        Director
USITC          464            40,299        PART TIME        Chainnan
CPSC           513            37,319        FULL TIME        Chairman
FCA            575            40,290        FULL TIME        Dir., Office of
                                                             Resources Mgt d
"CFTC          595            43,980        PART TIME    e   Chairman
ICC            645            43,777        FULL TIME        Chairman

a   Concurrent title is Assistant Chairman of Operations

b   Concurrent title is Public Affairs Specialist
c   Concurrent title is Director of Personnel
d   Comparable to Director of Administration

c   Concurrent title is Deputy Executive Director
                                                          ATTACHMENT 3

               COMBINED REPRESENTATION BY GRADE LEVELS

SENIOR LEVEL (GS-14+1     N=113

GROUP            NUMBER            REPRESENTATION OF N

WM                 88                     18%
WF                 18                     16%
BM                 2                       2%
BF                 3                       3%
OM                  2                      2%
OF                  0                      0%


MID-LEVEL (GS-12/13)    N=154

GROUP            NUMBER             REPRESENTATION OF N

WM                 76                     49%
WF                 48                     31%
BM                  8                      5%
BF                 16                     10%
OM                  4                      3%
OF                  2                      1%



ENTRY LEVEL (GS-11 and below)     N=176
GROUP            NUMBER             REPRESENTATION OF N

WM                 21                     12%
WF.                36                     21%
BM                 19                     11%
BF                 96                     55%
OM                  1                      1%
OF                  3                      2%



The data supplied for this schedule is the result of the print out of
the permanent employment work force as of 03/23/91 for the Commission.
The total population, as of that date, was 443 USITC permanent
employees excluding 18 employees in the Commissioner's offices.
N is used to represent the population of employees for that particular
category. It also represents the subtotals of the total population.
                                                          ATTACHMENT 4



                       WORKFORCE PROFILE FOR ECONOMISTS

ECONOMISTS <44)
SENIOR LEVEL <GS-14+)     N=21
GROUP                    .c.u:            NUMBER      REPRESENTATION
WM                       60.6%              17            100+
WF                       26.9%               2             35
BM                        2.3%               0              0
BF                        2.8S               1            100+
OM                        4.91               1             97
OF                        2.3S               0              0
MID-LEVEL CGS-12/13)      ~

GROUP                    .ell             NUMBER      REPRESENTATION ·
WM                        60.6%              9              78
WF                        26.9%              8             100+
BM                         2.3%              0               0
BF                         2.8S              0                  0
OM                         4.9%              1             100+
OF                         2.3S              1             100+
ENTRY LEVEL <GS-11 and below>      N=.!
GROUP                     UE              NUMBER      REPRESENTATION
WM                         60.6%                 2           83
WF                         26.9%                 2          100+
BM                          2.3S                 0            0
BF                          2.8%                 0            0
OM                          4.91                 0            0
OF                          2.3S                 0                  0
                                                          ATTACHMENT 5



                        WORKFORCE PROFILE POR ATTORNEYS

ATIORNEYS   (50)

SENIOR LEVEL CGS-14+)    N=39
GROUP                       llE             NUMBER         REPRESENTATION
WM                          60.6%            26                  100+
WF                          26.9%            10                   95
BM                           2.3%             1                  100+
BF                           2.81             2                  100+
OM                           4.91             0                     0
OF                           2.3%             0                     0

MIQ-LEYEL <GS-12/13>     N::ll
GROUP                       t.L.E           NUMBER        REPRESENTATION
WM                          60.6%              6                   90
WF                          26.9%              5                  100+
BM                           2.3%              0                    0
BF                           2.8%              0                    0
OM                           4.9%              0                    0
OF                           2.3%              0                    0
ENTRY LEVEL CGS-11 and below>         N=Q
GROUP                           llE          NUMBER       REPRESENTATION

WM                               60.6%             0                0
WF                               26.9%             0                0
BM                                2.31             0                0
BF                                2.81             0                0
OM                                4.9%             0                0
OF                                2.3S             0                0
                                                         ATTACHMENT 6



          WORKFORCE PROFILE FOR INTERNATIONAL TRADE ANALYSTS

INTERNATIONAL TRADE ANALYSTS     (146)
SENIOR LEVEL CGS-14+) N=37
GROUP                         .ell            NUMBER      REPRESENTATION
WM                              60.4%            34              100+
WF                              26.6%             2               20
BM                               3.6%             1               75
BF                               3.1%             0                0
OM                               4.2%             0                0
OF                               2.0%             0                0
MID-LEVEL <GS-12/13)   N=87
GROUP                          CLF             NUMBER     REPRESENTATION
WM                               60.4%           48                91
WF                               26.6%           29               100+
BM                                3.6%            5               100+
BF                                3.1%            2                74
OM                                4.2%            2                55
OF                                2.0%            1                57
ENTRY LEVEL <GS-11 and below>        N=22
GROUP                          .w:              NUMBER     REPRESENTATION
WM                                   60.4%        11                83
WF                                   26.6%        10               100+
BM                                     3.6%        0                 0
BF                                    "3.1%        1               100+
OM                                     4.2%        0                   0
OF                                     2.0%        0                   0
                                   Un·ited States                                                                     Attachment 7


                                   International
                                        Trade
                                   Commission


                                               EEO
                                Equal·Employment Opportunity
                                  Program Representatives




  James M. Bra ndon. Dlrecror                               Sondra Nornon                                     LoweiiGranl
      EQual Emoloym enl                                    Federa l Women s                                EQual Employmenl
     Opportunily Prooram                                   Prooram Manager                                Opportunlly CounselOr
          252-1433                                             252-1592                                         252· 131 2



                           I
                           I

                      -r·r II

              'f/J.
         Leo Webb
       EEO Counselor
                      ~                                     Erin Corter
                                                       Handicapped Program
                                                                                                               James Tsoo
                                                                                                      Aslon·Ametlcan-Pocttlc: Islander,
         252-1599                                           Manooer                                   American lndlon·Aiaska Notl'le
                                                             252-1201                                 Employment Proorom Monooer
                                                                                                                 252-1226




                                                                                                                       ".
  Charles Sole                    Moria eonilla-Willioms                        Tyrone Coward                       Bemk:e Moms
Vererans P10Qram                  Hisponrc Employmenl                          EQual EmpiOymenl                   EQual Employmenr
    Monaoer                             Manager                               Opportunity Counselor              Opportunity Counselor
    252- 1746                           252- 1085                                   252-179 2                          252- 1151
                                                              Appendix A




UNITED STATES INTERNATIONAL TRADE C01vlr'v1ISSION

                        VVASHI:\GTO:\. DC 20436




Sep~ember    9, 1991


MEMORANDUM


TO:          Inspector General

FROM:        Director, Equal Employment   pportu~t:~~

SUBJECT:     Draft Report: Revi        the USITC Equal Employment
             Opportunity Program

As requested in your memorandum of July 3, 1991 (IG-0-060), a
written response to the subject report has been prepared and
attached to this memorandum. In accordance with Section 11
of the USITC Directive 1701, the Commissioners have had an
opportunity to comment on the response and the Chairman has
recommended modifications as specified in the attached
memorandum dated September 6, 1991.


Attachments

cc:     Chairman
                   Equal Employment Opportunity


Comments on the Draft Audit Report "Review of the USITC Equal
Employment Opportunity Program."
The draft audit report of the USITC equal employment
opportunity program dated July 1991 has been reviewed, and we
have found the report to be thorough in its assessment of the
agency's equal employment opportunity program. Following are
statements indicating EEO's position on each recommendation
and comments regarding certain sections of the report that we
feel should be readdressed for clarification.
lindings And Recmmgendatipns

                  Office Structure and Resources

Recommend,ation

"Work with the Chairman's office in establishing an EEO
office with permanent staff resources."
Response

AGREE

Permanent staff resources are essential if the agency is to
implement and monitor comprehensive plans designed to enhance
all areas of the EEO program, pursuant to directives of the
Equal Employment Opportunity Commission, the Office of
Personnel Management, and other Federal regulations. The
permanent staff resource that is of the most importance in
meeting this objective is the assignment of a full-time
Director of EEO.
 Given the dual responsibilities of an EEO director assigned
 on a collateral basis, there is usually insufficient time to
 properly plan and monitor programs (including changes
 stemming from recommendations of the audit report) and stay
 abreast of issues that are vital to the effectiveness of EEO.
 In addition, there is an on-going learning process which
 enables full-t~e directors to better understand the
 complexities of complaint processing and to operate EEO
 programs more effectively. To assign an office director with
 a support staff as a Director of EEO on a rotational basis,
 or to assign a director on a rotational basis with a
 permanent, part-time person will not ensure continuity for
 future directors, or compensate for the experience,
 knowledge, and skills gained from serving as a director on a
 full-time basis. Assigning a director on a full-time basis
 will also eliminate the "conflict of interest" aspect that
·may develop for a director serving on a part-time basis.
                                  2

    In implementing the recommendation for a   full-time director,
    the Director of EEO will confer with the   Chairman's office,
    the Office of Administration, the Office   of Personnel, EEO
    Directors of Federal agencies, and other   offices deemed
!   appropriate.
    Estimated completion date - during FY 1992.
                         Performance Plans

    1. Recommendation

    "Prepare a performance plan for the EEO Director duties to be
    signed by the Chairman, and agreements (performance plans or
    memoranda of understanding) for the counselors and program
    coordinators to be signed by their immediate supervisors and
    the EEO Director."
    iesponse

    AGREE

    Under current conditions, the Director of EEO, counselors,
    and special emphasis program managers are not evaluated on
    the effectiveness of their performance in collateral EEO
    positions. In some instances, these employees spend an
    inordinate amount of time away from their regular jobs to
    prepare or implement EEO related activities. A performance
    plan for the Director of EEO and memoranda of understanding
    for counselors and special emphasis program managers would
    acknowledge their contributions to EEO and serve as an
    incentive to· improve performance. At least 15 percent of the
    time of those serving on a collateral basis should be
    allocated to EEO.
    In implementing this recommendation, the Director of EEO will
    draft performance elements (this may be accomplished with
    input fram a contracted source) to be included in the
    Director's perfor.mance plan and draft memoranda of
    understanding for counselors and program managers. These
    drafts will be reviewed by the Chairman's Office, the Office
    of Administration, the Office of Personnel, and appropriate
    supervisors.
    Estimated completion date - November 30, 1991.
    2. Recgmmendation
    "Request all Office Directors to certify that their branch
    and division chiefs have EEO requirements incorporated in
    their performance plans and revise the EEO directive to
                                 3

require that all supervisors and managers have an EEO
performance element in their performance plans."
Response
AGREE
To have Office Directors certify that their branch and
division chiefs have EEO requirements incorporated into their
performance plans would result in branch and division chiefs
being more sensitive to the concept of EEO. The appropriate
EEO directive should be revised to reflect this modification.
In implementing this recommendation, the Director of EEO will
draft EEO requirements to be incorporated into the
performance plans of branch and division chiefs (this may be
accomplished with input from a contracted source), and have
the requirements reviewed by Office Directors, branch chiefs,
the Office of Administration, and the Office of Personnel.
Estimated completion date -     December 31, 1991.
3. Recommendatiqn

"Include all aspects of the EEO program, e.g., training,
recruiting and minority programs, in funding requests."
Response
AGREE

Funding for EEO programs, training, and recruiting activities
have been included in the EEO expendi~ure plan for FY 1992.
Estimated   co~letion
              I
                        date - completed.
                             Reporting
1. Recgmmendation

"Established a schedule of required reports and due dates and
ensure EEO reports are submitted on time. ••
Response
AGREE

A schedule of required reports will be established to allow
for timely submissions to the Equal Employment Opportunity
Commission and the Office of Personnel Management.
Estimated completion date - November 30, 1991.
                              4


2. Recommendation

"Clarify the role of the Office of Personnel in report
preparation and approval, for example the FEORP plan."
Response
AGREE
Since a primary objective of EEO is to improve the
representation of women and minorities in the workplace, the
preparation of the agency•s Federal Equal Opportunity
Recruitment Plan (FEORP) should be a responsibility of the
EEO program. Given the complexity of the report and the
information needed for its completion, however, the EEO
program will rely heavily on the Office of Personnel for
required statistical data.
In implementing this recommendation, the Director will seek
guidance from the Office of Personnel to fulfill the FEORP
obligation.
Estimated completion date - The Director of EEO and the EEO
staff will work with the Office of Personnel on the FEORP
report to be submitted November 1, 1991. This will
familiarize members of the EEO program with the report and
the required data for future submissions.
                      Minority Programs

1 • Bec;ommendation

"Coordinate with the Director of Personnel to develop an
active recruiting program to attract minorities."
Re:monse
AGREE
T.he Director of EEO will coordinate with the Office of
Personnel in developing an active recruitment program
designed to attract female and minority employees.
Estimated completion date - During FY 1992
2. Res;gmmendation

"Identify an employee willing to be the Black Program
Coordinator and request a designation from the Acting
Chairman. "
                              5


Response

AGREE
Given the underrepresentation of black employees in the
agency's mainstream occupations (analysts, attorneys, and
economists) and the high percentage of blacks residing in the
Washington, D.C. metropolitan area, assigning a Black Program
Coordinator seems appropriate.
Estimated completion date - a Black Program Coordinator has
been selected and will be announced pending Commission
approval of this recommendation.
                    Commission Employees

1. Recommendation

"Develop a system to review annually the needs of the EEO
staff for· training and include this in the performance
plans."
ReSPonSe

AGREE

The recently appointed Special Emphasis Program Manager will
develop an agenda of training for the EEO program staff. A
statement pertaining to periodic training will be included
into the perfor.mance plans of the EEO staff.
Estimation completion date - November 30, 1991.
2. Recommendation

"Develop a comprehensive training agenda for the Commission
with at least one course offered annually to Commission
employees."
Response
PARTIALLY AGREE

Before offering one course annually to all Commission
employees, there should be an assessment of the need for such
training in order to conserve resources and ensure
appropriate benefit. Training requirements should also be
coordinated with the Commission's budget formulation process.
                              6


                          Posters
1. Recommendation

"Update the agency directive on the EEO program and include
the role of the Office of the General Counsel in the
complaint process."
ReSponse
PARTIALLY AGREE

The agency's policy manual regarding complaint processing
under EEO has been found to be a material weakness and was
scheduled to be revised by March 30, 1991. Due to an
increase in non-EEO related responsibilities, the Director of
EEO was unable to revised the policy by the scheduled date.
If the appointment of the EEO Director continues on a
rotational basis, it may be necessary to contract with an
outside source to revise the policy manual.
With the exception of advising the Chairman on EEO matters or
defending the Chairman in court in the event the Commission
is sued regarding an EEO complaint of discrimination, the
Office of the General Counsel has no other role in the
complaint process. The Office of the General Counsel has
conferred with EEO Directors on process issues, without
providing formal advice.
2. ieconpnenciation

"Design posters that comply with the Federal regulations and
post one on each floor of the Commission."
Response

AGREE

The posters depicting pictures, names, telephone numbers, and
titles of EEO committee members will be updated to comply
with Federal Regulations 29 CFR 1613.204. A poster will be
placed on each floor of the Commission.
                                7

Sections of Bepgrt to be Readdressed

             Reyiew of the USITC Egual Employment
                       Opportunity Plan
Para. 4.

"The Commission has not complied with two regulatory
requirements for published agency regulations and posted
notices.''
Conpnent

It would useful to list these noncompliance in this section
and refer to the pages of the report where there is a further
discussion.

"The Commission has a system to periodically evaluate the
effectiveness of the EEO program but has not taken corrective
actions in a timely manner to correct the deficiencies
identified."
conpnent
Please describe the system the Commission has to periodically
evaluate the effectiveness of the EEO program.
                   FindingS and Becommen4ations

Page 3, para. 2.

"We found t~t the EEO staff are all assigned on a collateral
duty basis, w~ch presents problems with continuity and
effective accomplishment of the EEO program."
coppnent
The problem of continuity is largely the results of rotating
Directors of EEO every one or two years. With a full-time
EEO director, assigning the EEO staff, i.e., counselors and
program managers, on a collateral basis will not interfere
with the continuity of the EEO program.
Page 3, para. 3,

 "We found that the Commission has implemented career
 enhancement programs but has made limited recruiting efforts.
 Except for an extensive Federal Women's Program, minority
·programs have had limited activity: a program coordinator has
 not been designated for Blacks."
                                 8

Convnent
Would suggest an explanation as to why a coordinator for
Blacks should be designated, or reference the section of the
report that goes into more detail.



                   Office Structure and Resources

Page 4. para. 4.

"The collateral duty aspect of the EEO program may result in
hours spent on the program being underreported, but the time
expended is still minimal."
Comment

When making a statement "but the time expended is still
minimal" there should be an appropriate comparison against a
standard. · How much time is appropriate?
Page 5. para. 5 (3).

"The director designation should be limited to senior staff
who have greater flexibility in managing their own time,
ability to delegate tasks and access to the Commission and
other senior staff. Certain office directors such as myself
and the General Counsel would have to be excluded from the
rotation."
Comment
Although there is no law or regulation prohibiting the
Director of Personnel from serving as the EEO Director, both
the Director of Personnel and the Director of Administration
feel that the Personnel Director should not be designated to
avoid the appearance of a conflict of interest.
Pagg 6. para. 3.

"The full-time EEO staff person at the EEOC was located in
the Office of Personnel, although the part-time Director was
not. We noted that the Department of Commerce has a Director
of Personnel and Civil Rights with separate offices for these
two functions reporting to him."
comment
It would seem inappropriate to make such a comparison with a
cabinet-level agency because of substantial difference in
size.
                                9


                        Performance Plans

Page 6. para. 4.

"Federal   regulations (5 CFR 720.204) state that all officials
who have   responsibility for the EEO program will be evaluated
on their   effectiveness in carrying it out as part of their
periodic   performance appraisals."
Conpnent

Although we are recommending the inclusion of EEO into the
performance plans of those having responsibility for the
program, 5 CFR 720 does not require the establishment of
specific elements and standards in order to evaluate the
effectiveness of officials charged with EEO responsibilities.
Pa1e 6. para. S.

"ITC Directive 4502 states that Commission supervisors and
managers bear major and ultimate accountability for the
realization of !EO in their respective organizations."
Comment

Directive 4502 should make clear that the phrase "Commission
supervisors and managers" includes the Commissioners and
their staff.
Pa1e 8. para. 4.

"In addition to ·budgeting funds, various Commission offices
provided support services to the EEO program. Roams were
made available upon re.quest for meetings, seminars and
programs. The Publishing Division assisted with designing
and printing flyers and posters. Since late 1989, the Office
of Personnel has maintained a system with the Department of
Energy for personnel statistics which includes the capability
to produce !EO statistics".
Cgnppgnt

This leaves the impression that the Office of Personnel did
not provide this data prior to 1989. Until Personnel could
use the Department of Energy system for personnel statistics,
data were prepared manually for the EEO program.
                                   10

     Page 10. sescnd rescmmendatign.

     "Clarify the role of the Office of Personnel in report
     preparation and approval, for example the FEORP plan."
     CgUDDent

     It is preferred that this recommendation be reworded as
     follows: "coordinate with the Director of Personnel to
     clarify the role of the Office of Personnel in report
     preparation and approval".




,_
       CHAIRMAN

                                                            Appendix B




       UNITED STATES INTERNATIONAL TRADE COMMISSION

                            WASHINGTON, D.C. 20436



     September 6, 1991

     TO:          Director, Equal Employment Opportunity
                  Program (EEO)
     FROM:        Acting Chairman Anne E.      Brunsdale~J?~~~
     SUBJECT:     EEO's August 13, 1991 comments on the
                  Inspector General's Draft Audit Report:
                  "Review of the USITC Equal Employment
                  Opportunity Program"


     I have carefully reviewed your subject comments and, in
     general, agree with you.
     However, the recommendation to establish a permanent
     EEO staff does not specifically state how this should
     be done. Since the documentation provided in the
     Report does not support creating even one full-time
     position, you should consider other options. Given the
     information that I now have, I am not prepared to
     support a full-time permanent position.
     I also strongly agree that the recommendation to update
     the agency directive on the EEO program should include
     the role of the Office of the General Counsel in the
     complaint process. The appropriate role of the OGC
     should not be prejudged, but developed as part of the
     preparation of the directive.




t_
